<html>
<title> - BURMA'S BRUTAL CAMPAIGN AGAINST THE ROHINGYA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
              BURMA'S BRUTAL CAMPAIGN AGAINST THE ROHINGYA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2017

                               __________

                           Serial No. 115-72

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                                         
                       

                                 ______
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-011 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                      
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Michael F. Martin, Ph.D., specialist in Asian affairs, Foreign 
  Affairs, Defense, and Trade Division, Congressional Research 
  Service........................................................     8
Mr. Walter Lohman, director, Asian Studies Center, Davis 
  Institute for National Security and Foreign Policy, The 
  Heritage Foundation............................................    19
Mr. Daniel P. Sullivan, senior advocate for human rights, 
  Refugees International.........................................    28
Ms. Andrea Gittleman, program manager, Simon-Skjodt Center for 
  the Prevention of Genocide, U.S. Holocaust Memorial Museum.....    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
Michael F. Martin, Ph.D.: Prepared statement.....................    10
Mr. Walter Lohman: Prepared statement............................    21
Mr. Daniel P. Sullivan: Prepared statement.......................    30
Ms. Andrea Gittleman: Prepared statement.........................    40

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    62


              BURMA'S BRUTAL CAMPAIGN AGAINST THE ROHINGYA

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. Good afternoon. The subcommittee will come to 
order.
    Members present will be permitted to submit written 
statements to be included in the official hearing record. 
Without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions, and extraneous 
material for the record subject to length limitations in the 
rules.
    As a reminder, I would like to remind the audience members 
that disruption of the committee proceedings is against the law 
and will not be tolerated. Although wearing theme shirts while 
seated in the hearing room is permissible, holding up signs 
during the meeting proceedings is not. Any disruptions will 
result in the suspension of the proceedings until the capitol 
police can restore order. And we thank you for following these 
guidelines.
    Good afternoon, and thank you to everyone for joining us 
today to discuss this sobering topic. The latest outbreak of 
ethnic violence in Burma's Rakhine state has brought about the 
most urgent humanitarian emergency in the Asia Pacific today.
    We are convening this hearing today for two primary 
purposes. First, to gather information and impressions from our 
expert panel, some of whom recently have been on the ground in 
Burma to see this firsthand. And, secondly, to hear their 
recommendations for how the U.S. policy can best address this 
crisis.
    The Rohingya, a stateless Muslim people living in the 
Rakhine state, are frequently described as the world's most 
persecuted minority. Denied citizenship in Burma and treated as 
unwanted, illegal immigrants, their modern history has been a 
continuous deprivation of basic human rights, punctuated with 
episodes of extreme violence. The latest of these is ongoing, 
and it is just unbelievable the amount of persecution that is 
going on.
    On August 25, the Arakan Rohingya Salvation Army, ARSA, a 
Rohingya militant group, launched a coordinated attack on a 
security outpost in Burma's Rakhine state, killing 
approximately a dozen personnel. In the weeks that have 
followed, the Burmese military has carried out a brutal 
retaliatory crackdown against the Rohingya population as a 
whole, characterized by sickening crimes against humanity.
    Human Rights Watch released a report on Monday documenting 
widespread and systematic attacks on the Rohingya civilians; 
deportations and forced population transfers; murders, 
including the murder of women and children; sexual violence; 
the razing of villages; and the deployment of landmines along 
paths used by the refugees. The reporting is corroborated by 
eyewitness accounts on the ground and satellite images, and it 
is heart-wrenching in its details.
    The military's violence has sparked a massive refugee 
outflow into neighboring Bangladesh, which the Economist 
reports is the most intense since the Rwanda genocide. In this 
latest crisis alone, about 436,000 Rohingya have crossed the 
border, overwhelming the aid organizations there and bringing 
the total number of Rohingya refugees in Bangladesh to near 1 
million. An unknown number of additional Rohingya remain 
internally displaced within the Rakhine state. The death toll 
is in the hundreds at least, and that is at a minimum. But aid 
organizations and reporters are denied access to this affected 
area, and the total number may be much higher in the tens of 
thousands.
    The road ahead will be difficult. Responding to the 
immediate crisis will be an enormous task, to say nothing of a 
sustainable lasting solution to the Rohingya dilemma. Burma has 
not created a space for the Rohingya in its society, and there 
is little appetite among the Buddhist majority to do so. State 
Counselor Aung San Suu Kyi, once thought as a global symbol of 
human rights and democracy, has led a lackluster response by 
the Burmese Government, focusing on denial and blaming the 
victims.
    The ARSA militants are also not helping their fellow 
Rohingya. Their latest attack came on the very day a commission 
headed by the former U.N. Secretary General Kofi Annan released 
his recommendations on easing ethnic tensions in Rakhine. This 
was the government's most high-profile effort to improve the 
conditions in Rakhine following previous episodes of violence, 
and the ARSA attacked just as Aung San Suu Kyi pledged to 
implement the panel's recommendations.
    Recent reports have indicated that the outflow of refugees 
to Bangladesh has slowed or stopped, which foreshadows the next 
stage of the crisis: The enormous challenge for humanitarian 
aid organizations to shift from lifesaving measures to a longer 
term effort to house and feed almost 1 million people, who 
under the current circumstances, are totally incapable of 
seeing to their own needs.
    In Washington, we will need to determine how we can best 
support these efforts, as well as what policy options are 
available for pressuring the Burmese military to stop its 
brutal violence and encouraging the civilian government to take 
a firmer stand against the military's atrocities.
    So I thank the witnesses for joining us today and look 
forward to their testimony and recommendations.
    Without objection, the written statements will be entered 
into the hearing.
    I now turn to the ranking member for any remarks he may 
have.
    [The prepared statement of Mr. Yoho follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman.
    I am told that the Ambassador from Bangladesh is here. 
Thank you, sir, for being here, but more importantly, thank you 
for what your country, one of the poorest countries in the 
world, is doing to take care of hundreds of thousands of 
refugees.
    I would also like to introduce the Ambassador of Burma, 
but, unfortunately, I can't because that Ambassador is not 
here. If that Ambassador were here, that Ambassador could find 
out what the world thinks of the policy of the Burmese 
Government toward hundreds of thousands of its own citizens.
    A humanitarian tragedy is unfolding in Burma, which is also 
referred to as Myanmar. Burma's military, the Tatmadaw, moved 
against the Rohingya population after an August 25 attack by 
Rohingya militants on Burmese security forces. Nearly \1/2\ 
million Rohingya Muslim refugees have fled their homeland in 
the Rakhine state following Burmese military operations against 
them.
    The U.N. High Commission for Human Rights noted that this 
situation seems to be a textbook example of ethnic cleansing. 
Late last year, something similar occurred on a smaller scale 
when an estimated 60,000 to 90,000 Rohingyas fled to Bangladesh 
as a result of Burmese military operations that have followed 
in October 2016 Rohingya militant attack on border police.
    The vast majority of those who fled to Bangladesh, which 
is, as I pointed out, already impoverished and overcrowded, 
though the vast majority have fled there, a roughly 40,000 fled 
to India. Unfortunately, media reports indicate that India's 
border security forces are attempting to prevent Rohingya from 
entering India through Bangladesh amidst the ongoing exodus 
from Burma, including the reported use of stun guns and pepper 
grenades. However, I should point out that the international 
law is different for Bangladesh, which is the first resting 
place of those fleeing. Once people are in Bangladesh, they are 
not being oppressed, although they are not economically viable 
at the present time. So whether India has an obligation to 
accept them from Bangladesh is a subject that perhaps our 
witnesses can get into.
    The United States has led an international response to 
protect the--we have lead the international response to protect 
Muslims in Kosovo and in Bosnia against Serb aggression. We 
need to play a role along with others in protecting the 
Rohingya in dealing with the humanitarian needs. We also need 
to make sure that the Muslim world realizes that we are the 
only country to bomb a Christian nation, Serbia, for the 
defense of Muslims, something that is not widely focused on in 
the Muslim world.
    The administration should work to ensure that the physical 
needs of hundreds of thousands of refugees are provided for, 
secure a halt to Burmese military operations against the 
Rohingya, secure a safe return of the Rohingya population back 
to Burma, demand that Burma end decades of discrimination 
against the Rohingya, including addressing cases of 
appropriated land, citizenship rights, political 
representation, the lack of free movement, and economic 
improvements. This is especially necessary in citizenship 
rights. The idea that a people could live in a country 
generation after generation and still be called foreigners 
under that country's laws is simply outrageous.
    We are to urge the United Nations Security Council to 
establish a U.N. Security Council probe commission on Burmese 
ethnic cleansing against the Rohingya and urge the United 
Nations Security Council to establish a U.N.-monitored safe 
zone for the Rohingya in Rakhine state to protect it from 
future mass killings.
    The Burmese Government says it will allow the return of 
these refugees, catch-22, when they provide proof of 
nationality. Since 1982, the Burmese Government has stripped 
the Rohingya of their citizenship, making it impossible for 
them to prove their Burmese nationality. This is outrageous. 
Every group of people on the Earth has immigrated to where they 
live from somewhere else. Since we all came from apparently 
eastern Africa, and to say that you are not a citizen of a 
country because you cannot prove that your most ancient 
ancestors were born there would make us all citizens perhaps of 
Ethiopia and not citizens of any other country in the world. I 
say that just to show how absurd the position is to deny 
citizenship for people not only born in the country, but whose 
parents, even grandparents were born in that country.
    The United States, who was closely involved in bringing 
democracy to Burma, in a process that included elections in 
2010 and 2015, the release of political prisoners, the 
formation of a civilian government, and the lifting of U.N. 
sanctions. The United States should also take the lead of 
holding democratic practices, and democracy goes with fair 
treatment of minorities and a protection of minorities. It must 
press the Burmese Government to end military operations against 
the Rohingya, accept the refugees back, and grant them 
citizenship. I think they are already legally citizens. 
Recognize that citizenship.
    In September of last year, I, along with other members of 
this subcommittee, met with Aung San Suu Kyi as the former 
administration decided to lift a number of economic sanctions 
on Burma. It is clear, after the massacres and cleansing of 
October 2016 and the recent actions, that we need to reevaluate 
that policy.
    Last week, the State Department announced the U.S. is 
providing an additional 32 million in humanitarian assistance. 
I look forward to hearing from our witnesses whether that is 
sufficient.
    And I yield back.
    Mr. Yoho. I thank the ranking member.
    I too also would like to welcome Ambassador Ziauddin. Thank 
you for being here, for representing Bangladesh, and thank you 
for the support you have given to this crisis that is ongoing.
    I would like to commend the ranking member on his pointing 
out that the United States is a Nation that is--the only nation 
that has bombed a Christian nation to protect the Muslim 
populace.
    With that, I would like to turn to Mr. Chabot from Ohio for 
an opening statement.
    Mr. Chabot. Thank you very much, Mr. Chairman, and thank 
you for holding this really very important hearing at a 
critical time.
    The news, as you indicated, from the Rakhine state about 
the humanitarian crisis, unfortunately, seems to be getting 
worse every day. As a former chairman of this committee, I have 
been following this with really great concern for some time 
now.
    The previous administration touted Burma as a success story 
and relaxed many of the restrictions that have been 
longstanding, including on the Burmese military. Unfortunately, 
we are seeing that, in many ways, the Burma that we see today 
isn't that much different than the one that we knew only a few 
years ago. There have been some improvements, but far too few.
    A number of us at the time were warned that this democratic 
transformation was incomplete and that President Obama and then 
Secretary of State Clinton's optimism was premature. The 
current situation in Rakhine state, unfortunately, seems to 
illustrate that we were right, much as I wish that we had been 
wrong.
    So I look very much forward to this very distinguished 
panel here and hearing what solutions, what we can do to help. 
So I thank you. I yield back.
    Mr. Yoho. Thank you, Mr. Chabot.
    Now we will go to Mr. Rohrabacher for an opening statement.
    Mr. Rohrabacher. I have been following the events in this 
part of the world for a number of decades, but I will have to 
admit that I have a very shallow information base, knowledge 
base on what is happening on the issue being described today. 
So I will be very interested in hearing a history of this.
    I realize that I have been very active in the past in 
trying to support the Karens and the Karenis who were 
brutalized by the Burmese Government. And the Karens and the 
Kareni, of course, are Christians, or at least a large segment 
of their population is Christian. I understand from the people 
I know in Burma that there is a great deal of brutality still 
going on by the Burmese Government toward the Karens and the 
Kareni. However, being Christians, they don't seem to get as 
much attention as it is when we see a group of Muslims who are 
under attack.
    I think that it is up to us to send a message to Burma that 
this type of repression, both whether it is Christians or 
Muslim, that attacks on unarmed civilians is unacceptable. But 
let me also note that we need to send a message to the people, 
to the Muslim people of the world that our human rights agenda 
is not just a front to attack Muslim regimes when they are 
doing something wrong, but when the Islamic people are being 
victimized, that we care about them just as we do anyone else.
    So I thank you for this hearing today. I plan to educate 
myself from what we are going to hear from the witnesses. So 
thank you very much.
    Mr. Yoho. Thank you, Mr. Rohrabacher.
    Now we will go to Mrs. Ann Wagner for an opening statement.
    Mrs. Wagner. Thank you, Mr. Chairman, for hosting this 
hearing. I too am devastated by the news coming out of Burma.
    For over 60 years, the Burmese Government has persecuted 
religious and ethnic minorities across the country. War has 
raged in Karen states, Chin states, Shan states, Kachin states, 
and the list goes on and on.
    The Obama administration lifted sanctions. Actually, Burma 
was becoming a democracy, but Burma's Government had no 
authority over the nation's powerful military. Human rights and 
democracy activists across Burma feel abandoned. The Christians 
in Kachin states have been ignored by the West. The Rohingya 
Muslims have been left for dead. With more Rohingya now living 
outside of Burma than living inside of Burma, the international 
community must stop demanding action and take action. We are in 
part to blame for not holding the Burmese Government and 
military accountable for their actions.
    So I want to thank you all very much for coming today. And 
a special thanks to Mr. Sullivan and to Ms. Gittleman for the 
advocacy work that you do in this arena. And my sincere thanks 
to the Ambassador from Bangladesh for the generosity of your 
country in opening up your border.
    Mr. Chairman, I yield back.
    Mr. Yoho. Thank you, Mrs. Wagner.
    This hearing today is so important because of the 
atrocities that going on out there, and we depend on the 
information that you guys give us, the panel, on the direction 
we go. When we look at the history of this, the length of time 
this has been going on, I don't know how the world can stand by 
and do nothing. And so you guys are going to bring this out 
into the open. And I don't want to say you are not doing 
anything because you are the Ambassadors, you are dealing with 
this in a good way, and we commend you. But we have to bring a 
stop to this. This is the 21st century, and we are doing stuff 
from the stone age to people on the ground.
    We met with an NGO yesterday, and he was showing us graphic 
pictures of charred bodies that were lined up, people with 
flamethrowers burning people in the 21st century. It is 
unacceptable, and we need to bring this to an end with the 
world community.
    So with that, I look forward to your testimonies. And I 
want you to understand that so much of what you guys tell us in 
a hearing goes into legislation that we put on through the 
State Department, maybe the Treasury or other organizations, so 
be very specific, be bold. I give you the permission. You can 
direct us. Use this opportunity to say, if I could write the 
legislation, this is what I would do to bring this to an end. 
So I welcome your testimonies.
    You are limited to about 5 minutes. Try to end when the red 
light goes on or ends at 5 minutes. Make sure you press your 
button so the microphone is on.
    With that, I am going to introduce the panel. We are going 
to start with Dr. Michael Martin, specialist in Asian affairs 
for the Congressional Research Service, Foreign Affairs, 
Defense, and Trade Division. Thank you for being here. Mr. 
Walter Lohman, thank you for being back. Director of the Asian 
Studies Center for the Heritage Foundation. Dr. Daniel 
Sullivan, senior advocate for human rights at the Refugee 
International. And Ms. Andrea Gittleman, program manager for 
the Simon-Skjodt Center for the Prevention of Genocide at the 
U.S. Holocaust Memorial Museum. That is a mouthful. Thank you 
for being here.
    And, Dr. Martin, if you don't mind, we will start with you, 
and look forward to hearing from you.

  STATEMENT OF MICHAEL F. MARTIN, PH.D., SPECIALIST IN ASIAN 
    AFFAIRS, FOREIGN AFFAIRS, DEFENSE, AND TRADE DIVISION, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Martin. Chairman Yoho, Ranking Member Sherman, and the 
members of the subcommittee, thank you for this opportunity to 
appear before you today to discuss the current crisis in 
Burma's Rakhine state, the status of the Rohingya who have fled 
to Bangladesh, as well as those remaining in Burma.
    The current crisis in Burma's Rakhine state is not the 
first time in which thousands of Rohingya have fled to 
Bangladesh, nor is it the only crisis in Burma that involves 
forced displacement for thousands of Burmans from their home.
    According to the United Nations High Commissioner for 
Refugees, there were over 375,000 internally displaced persons 
in Burma at the end of 2016 due to the nation's ongoing civil 
war. In addition, more than 100,000 refugees live in camps in 
Thailand as a result of past fighting in Karen, Kareni, Mon, 
and Shan states. Some of these refugees have been living in 
camps for over 30 years.
    While Burma's civil war and ongoing humanitarian challenges 
are issues in their own rights, it is the plight of the 
Rohingya that has captured the world's attention.
    Since Burma's military junta, the State Peace and 
Development Council transferred power to a mixed civilian 
military government in 2011, large-scale forced displacement of 
Rohingya have occurred on four occasions from June to October 
2012, again in the spring of 2015, during the winter of 2016-
2017, and most recently, starting on August 25, 2017. The 
latest displacement began after the Arakan Rohingya Salvation 
Army, or ARSA, allegedly attacked 30 security outposts northern 
Rakhine state. Burma's military, or Tatmadaw, responded by 
initiating a clearance operation in the townships of 
Buthidaung, Maungdaw, and Rathedaung. As a result, over half of 
Burma's estimated 1.1 million Rohingya are now in refugee camps 
in Bangladesh, and I would add that that percentage is probably 
low.
    During my 2-week trip to Burma earlier this month, I 
visited three camps of internally displaced persons, or IDPs, 
in northern Shan state. I also interviewed six individuals who 
said they had been beaten by Tatmadaw soldiers for their 
alleged support of ethnic armed organizations, or EAOs, 
operating near their villages. Their stories of abuse at the 
hands of the Tatmadaw were amazingly similar, maybe not 
surprisingly similar, to those being told by the Rohingya right 
now in Bangladesh. I would also add that none of them accounted 
similar beatings by EAO soldiers.
    During my trip, I was repeatedly told that most Burmans, 
including other ethnic minorities, welcome the Tatmadaw's 
clearance operation and the resulting displacement of the 
Rohingya. The popular narrative among Burmans is that the 
Rohingya are Bengalis, illegal immigrants from Bangladesh, and 
are part of an effort to transform Burma into a Muslim nation, 
as was done in Indonesia and Malaysia centuries ago. When 
asked, people discredit claims of misconduct by the Tatmadaw 
soldiers and attribute any human rights abuses to ARSA.
    While many international observers have criticized State 
Counselor Aung San Suu Kyi for her failure to take action, few 
have directed their criticism at Burma's Commander in Chief, 
Senior General Min Aung Hlaing. Under Burma's 2008 
constitution, a constitution written by the Tatmadaw, General 
Min Aung Hlaing has supreme authority over all of Burma's 
security forces, including the Tatmadaw, border guard forces, 
and the Myanmar police force. State Counselor Aung San Suu Kyi 
and the civilian government have little direct authority over 
those security forces.
    The events of the past month in Burma raised a number of 
potential issues for Congress. Congress may consider the 
immediate humanitarian crisis in Bangladesh and Burma, as well 
as the possible long-term assistance that may be required. 
Congress may also address whether allegations of human rights 
abuses by the Burmese security forces, ARSA, or others in 
Rakhine states can be properly investigated, and if found 
credible, adjudicated in an appropriate manner.
    In addition, this crisis provides an opportunity for the 
United States to reflect on its policy toward Burma in general. 
The events in Rakhine state reveal much about the relationship 
between the Tatmadaw and Aung San Suu Kyi and her government, 
as well as relations among Burma's various ethnic groups and 
the nation's prospects for peace. It has also raised question 
about Burma's role in regional geopolitical strategic and 
security relations, including those with China and India.
    Mr. Chairman, this concludes my oral remarks. Thank you 
again for the opportunity to testify. I look forward to the 
subcommittee's questions on either my oral or written 
testimony.
    [The prepared statement of Mr. Martin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Yoho. Dr. Martin, I appreciate it, and thank you for 
that great testimony.
    We have been blessed and honored to have the chairman of 
the full committee, Mr. Ed Royce here, and he has an opening 
statement.
    Mr. Chairman.
    Mr. Royce. Thank you. Thank you, Chairman Yoho, for giving 
me this opportunity, because I did want to register my 
observations about the circumstances that we are dealing with 
here. And I want to thank you for this important hearing, 
Chairman Yoho.
    There are few issues more pressing that demand our 
attention as much as this issue does this week and last week 
and the week before. The plight of the Rohingya, an ethnic 
group that many have called the most persecuted in the world, 
is also one that deserved our attention a long time ago. As a 
matter of fact, if we went back to 1982, if we look at what 
this population has been through, a citizenship law denied 
Burmese citizenship to Rohingya, even though most of them had 
lived in that country for generations. They have been denied 
freedom of movement, denied access to an education, to 
healthcare. Burmese Rohingya have been marginalized by every 
level of government, and that is top to bottom. And today the 
persecution of these people have reached new horrific levels.
    Fleeing government retaliation for attacks carried out by 
the ARSA, a fringe militant group at least 420,000 Rohingyas 
have been driven from their homes. They have been forced to 
cross the border into Bangladesh. I have heard personally their 
stories of what they have been through, of the villages that 
have been burned. Hundreds have been killed officially, but we 
know the number is many multiples of this. And journalists have 
been denied access to large areas of Rakhine state. So that is 
why I suspect this number is far, far higher than what is being 
reported.
    Now, what has been reported so far is that 200 villages 
have been burned, but I hear reports that I haven't seen in the 
papers yet from others who are connected to the Internet who 
tell me about additional villages being burned. Landmines have 
been placed inside Burma's borders with Bangladesh, maiming a 
handful of those seeking safe haven, but we know more will be 
killed by these landmines because no one has made a record of 
where they have been placed. It is little wonder that the U.N. 
human rights chief called this a textbook example of ethnic 
cleansing, and that is a strong but very warranted 
condemnation.
    In the face of these atrocities, Burma's response has been, 
frankly, appalling. I have no illusion that with a young 
democratically elected government the challenges facing Aung 
San Suu Kyi are immense. But at the same time, if she is only a 
counselor, and if the power and the authority actually rests 
with the military, she still has the responsibility to speak 
out strongly on this issue of human rights. She has got to 
bring together widely diverse ethnic groups and work to improve 
an economy that suffered for decades under the military junta's 
mismanagement. But nothing is more important than providing for 
the safety of the people within her borders. And Aung San Suu 
Kyi's recent statement questioning why the Rohingya were 
fleeing and denying that the military had conducted clearance 
operations is wildly off the mark.
    The perpetrators of this ethnic cleansing must be condemned 
in the strongest terms and held accountable. The Burmese 
Government cannot be allowed to blatantly and cruelly mistreat 
Rohingya Muslims and other minority groups. The United States 
must prioritize the Rohingya and the protection of human rights 
in its relations with Burma, and we should use the tool at our 
disposal to help put a stop to this violence and to get USAID 
down on the ground and to get the Burmese people, the Rohingya 
people returned.
    Lastly, Bangladesh deserves praise for opening its borders 
to this influx of refugees. It is my sincere hope that the 
government honors its promise to build shelter for new arrivals 
and provide the needed medical care to them.
    And again, I thank Chairman Yoho. I thank the Ambassador of 
Bangladesh who is with us today. We appreciate what you have 
done, and I think this is a very important hearing. I thank the 
other members who are engaged in this issue for being involved. 
Thanks.
    I yield back.
    Mr. Yoho. Thank you, Chairman Royce. I appreciate your 
input and being here.
    Mr. Lohman, if you would continue the testimony. Thank you.

STATEMENT OF MR. WALTER LOHMAN, DIRECTOR, ASIAN STUDIES CENTER, 
 DAVIS INSTITUTE FOR NATIONAL SECURITY AND FOREIGN POLICY, THE 
                      HERITAGE FOUNDATION

    Mr. Lohman. Thank you. Thank you, Mr. Chairman.
    Mr. Sherman, other members of the committee, I appreciate 
you having me here to----
    Mr. Yoho. Do you have your microphone on?
    Mr. Lohman. It is on.
    Mr. Yoho. Okay. Maybe move it a little closer.
    Mr. Lohman. Okay. Events in Burma over the last month have 
been heartrending, but they are only a manifestation of deeper 
realities about Burma that must be taken into better account in 
U.S. policy going forward, particularly as regards any 
normalization of U.S. military ties.
    The first reality concerns Burma's relationship with China, 
their relationship between their militaries in particular. To 
the extent the proposals to open U.S. relations with the 
Burmese military are about ``balancing China,'' they vastly 
overestimate U.S. leverage.
    The one inescapable geographical reality is that China 
shares a border with Burma. The Chinese have major interests at 
stake there, much bigger than our own: Stability along their 
border, access to the Indian Ocean, rights alternative to the 
Malacca straits in the South China Sea for their trade, and 
access to energy resources, securities interests. The Chinese 
play both sides of the fence. They supply and support 
insurgencies along the border, and at the same time, they 
maintain a close relationship with the Burmese military and the 
civilian government.
    To maintain this position, the Chinese will compete with 
all the carrots and sticks they have, and they have far more 
than we do at this point in time on this particular place on 
the map. Our own efforts to engage in the military by 
comparison only compromise our values with little upside.
    The second reality I think Congress needs to take into 
account is the potential for the Americans to impact the reform 
process in Burma, and particularly impact the way the military 
sees reform. As is well known, civilian authorities of Burma 
have no control over the military. Some have, therefore, 
theorized that the U.S. should give the military a stake in 
political reform by offering it benefits, chiefly, contact with 
the U.S. military. This ignores equities that the military has 
in not fully cooperating with future reforms. The Burmese 
military had its own objective for initiating reforms under the 
previous regime, objectives that did not encompass fundamental 
reform of its own sources of power or its ultimate interest in 
crushing the opposition.
    The third reality concerns the nature of the Burmese 
military itself. The political environment in Burma has 
certainly changed. I think we have to acknowledge that. But I 
see no reason to believe the military has changed its own 
character. The textbook example of ``ethnic cleansing'' in 
Rakhine state is, in fact, a culmination of a decades long 
history of persecution by successive military governments in 
Burma. As Mike Martin pointed out, it is only different in 
degree from what has been happening in other ethnic areas for a 
very long time, and as Mr. Rohrbacher pointed out as well.
    Given these realities, I think it is time for Congress to 
step away for a moment and take a look at a broader approach to 
Burma, do a reset on our Burma policy, and here are five things 
that you could consider.
    Number one, remove authorities in the 2015 National Defense 
Authorization Act granting DOD authority to establish training 
opportunities for Burmese military personnel.
    Number two, codify the embargo on the exported defense 
articles and services to Burma.
    Number three, reimpose restrictions on Americans doing 
business with military-linked companies.
    Number four, continue the prohibition on IMET and foreign 
military financing.
    And number five, reimpose asset freezes and visa bans on 
Burmese military and give these measures basis in new laws tied 
to new goals that are reflective of the time.
    It is Congress that dictated Burma policy for 20 years 
before President Obama moved to end sanctions. Congress should 
reassert its role and enact legislation that updates America's 
goals to reflect all that has changed in Burma and all that 
hasn't.
    At Heritage, we are engaged in a project to develop a 
proposal to do just this, and we look forward to reporting back 
to you the full scope of our findings. Thank you.
    [The prepared statement of Mr. Lohman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                   ----------                              

    Mr. Yoho. Mr. Lohman, I appreciate it.
    Mr. Sullivan, if you would go ahead. Thank you.

STATEMENT OF MR. DANIEL P. SULLIVAN, SENIOR ADVOCATE FOR HUMAN 
                 RIGHTS, REFUGEES INTERNATIONAL

    Mr. Sullivan. First, I would like to take the opportunity 
to thank Chairman Royce, Chairman Yoho, and Ranking Member 
Sherman, and the members of this subcommittee for holding this 
very timely and very important hearing.
    Mr. Chairman, there is a tragedy of historic proportions 
that is unfolding right now in Myanmar, also known as Burma. 
Nearly \1/2\ million of one single ethnic group, the Rohingya, 
have now fled from the country. That is at least one-third of 
the entire population that was living there up to a month ago. 
There are now more people, more Rohingya living in Bangladesh 
than there are in Burma, in Myanmar. Hundreds if not thousands 
of Rohingya have been killed.
    There is no question that crimes against humanity and 
ethnic cleansing are taking place. I know this is happening 
because I was there in Bangladesh hearing firsthand from people 
who had experienced these abuses. Refugees International's 
president, Eric Schwartz, who is a former White House official 
and assistant Secretary of State, he has spent three decades, a 
career in various dozens of humanitarian and human rights 
missions, told me that this is one of the worst he has ever 
seen.
    I would like just to share one story that I think is 
illustrative. There is a woman named Lila, a 28-year-old mother 
of three daughters all under the age of seven. She told me how 
just a few days before she had been in her village in Rakhine 
state when soldiers, Myanmar soldiers came and surrounded her 
village, lit their homes on fire, shot at them. They fled. One 
of the soldiers grabbed her by the arm and tried to drag her 
away. She somehow escaped. Her husband told them to go ahead 
without him. He was going to try to get the family cows and 
bring them over. She with her three young daughters went by 
foot over the border to Bangladesh hiding in waist-deep water 
for long periods of time and arrived with just the clothes on 
her back. Just a few days later, she heard from neighbors who 
arrived that they had found her husband's body in the river 
with a gunshot wound to the back of the head. This is just one 
of so many stories that I and so many others have heard from 
people fleeing.
    It is important to recognize ARSA, and it is important to 
recognize that there are other minorities, Rakhine Buddhists 
and Hindus who have been killed and displaced, but it is 
nowhere near on the scale of the Rohingya.
    The response of the Myanmar military has been grossly 
disproportional. It has also unleashed a humanitarian tragedy 
and crisis in Bangladesh. The Government of Bangladesh, to its 
great credit, has largely welcomed the Rohingya. It will be 
vital for the government to continue to work with international 
agencies, the UNHCR, the International Organization for 
Migration, and international NGOs to address the needs. I would 
just highlight the need for psychosocial and other services for 
gender-based violence, and the heightened risk of human 
trafficking.
    The announcement of $32 million in U.S. aid was a very 
welcome shot in the arm, but U.N. agencies are now reporting 
there will be at least $200 million needed over the next 6 
months to address the crisis.
    In the interest of time, I am happy to speak further on the 
humanitarian situation with the question period. But 
ultimately, the only true long-term solution is to address the 
root causes, and I would just like to highlight three levels of 
responsibility.
    First and foremost, as we have heard, a name I think we 
should be hearing more and more is Senior General Min Aung 
Hlaing and the military. It is the Myanmar soldiers who are at 
the front lines of committing these abuses, and they are also 
those with the most power to bring them to an end.
    Secondly, there is the civilian leadership in Aung San Suu 
Kyi. She has not simply been silent; she has refused to allow a 
U.N. factfinding mission to come in. Her office has accused 
international NGOs of supporting terrorism. In her first 
address on the crisis to the world last week, she expressed 
ignorance as to why people were fleeing in such numbers, and 
indicated that the fact that less than 50 percent of the 
villages being burned was, by her account, was somehow okay.
    Yes, she is limited in her influence by the military, but 
she still has a strong voice. And so far, she has only used it 
largely just to defend actions that are patently indefensible.
    The third level of responsibility is with world leaders, 
and in the context of this hearing, with the U.S. Government. I 
thank Members of Congress and members of this subcommittee for 
speaking out on the Rohingya, but so much more is needed.
    There are several steps that the U.S. Congress can take, 
and I just quickly highlight a few. Prohibiting military to 
military cooperation with Myanmar; placing targeted sanctions 
on Senior General Min Aung Hlaing and other senior leaders, as 
well as military-owned enterprises; urging the Trump 
administration to list those individuals on the Specially 
Designated Nationals list; also, pressing the Trump 
administration to work through the U.N. Security Council for 
multilateral measures, including an arms embargo, targeted 
sanctions, and authorization of collecting of evidence and 
possible referral to the ICC if accountability is not had.
    I would also emphasize support for robust humanitarian 
efforts in Bangladesh and the need to push for humanitarian 
access within Myanmar. Ultimately, for long-term solutions the 
Kofi Annan advisory commission recommendations should be 
implemented.
    Allow me to end on just a personal reflection that when I 
first started hearing the accounts of what was happening, 
getting videos from credible sources and seeing the masses 
moving to the border, I knew this was something different, and 
it had shades of Darfur, Srebrenica, and Rwanda. I hope that we 
are not looking back in the same way and asking what more could 
we have done to prevent the Rohingya going down that same road. 
Thank you.
    [The prepared statement of Mr. Sullivan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Yoho. Mr. Sullivan, I appreciate your testimony. I read 
it, and I could tell it was laced with a lot of emotion, and I 
can tell that by your testimony, and I appreciate you being 
here and reporting to us.
    Ms. Gittleman, if you would be so kind.

   STATEMENT OF MS. ANDREA GITTLEMAN, PROGRAM MANAGER, SIMON-
 SKJODT CENTER FOR THE PREVENTION OF GENOCIDE, U.S. HOLOCAUST 
                        MEMORIAL MUSEUM

    Ms. Gittleman. Thank you, Chairman Yoho and Ranking Member 
Sherman, for convening this hearing on such an urgent matter.
    I speak on behalf of the United States Holocaust Memorial 
Museum, Simon-Skjodt Center for the Prevention of Genocide. We 
draw upon lessons learned from the Holocaust, and the failure 
to prevent genocide then, in order to inform policy decisions 
today. It is with great alarm that we are here to discuss yet 
another situation of mass atrocity that the world is failing to 
prevent and local authorities are refraining from halting.
    The Simon-Skjodt Center sounded the alarm about early 
warning signs of genocide against the Rohingya 2 years ago. 
Even then, the warning signs were clear, including the denial 
of citizenship, segregation between Rohingya Muslims and 
Buddhist Rakhine, and impunity for violence against Rohingya. 
In fact, Burma had been listed as one of the top three 
countries most likely to experience a state-led mass killing in 
the Museum's early warning project, and that has been every 
year since the project began. These warning signs were known, 
yet not heeded by leaders within Burma and others around the 
world.
    During a recent period of renewed international engagement, 
the Burmese Government perpetuated an enabling environment for 
mass atrocities. Over the past year, the Simon-Skjodt Center 
worked with the human rights organization Fortify Rights to 
gather testimony from Rohingya who have fled northern Rakhine 
states.
    As discussed, deadly attacks by a group known as ARSA were 
followed by the Burmese military so-called clearance 
operations, operations that the government stated were to 
address the threat of militants, but in practice, were brutal 
and disproportionate attacks against Rohingya civilians. Those 
who survived shared stories that consistently described the 
brutality of the Burmese military and their associates, how 
they attack entire villages and kill men, women, and children, 
and employ barbaric tactics such as rape and torture under the 
guise of countering militants.
    I spoke to Rohingya refugees in Bangladesh earlier this 
year after the first round of these so-called clearance 
operations, and people shared with me horrific stories of 
witnessing soldiers murder their family members, of fleeing for 
their lives not knowing of the fate of their loved ones. Women 
shared disturbing details of sexual violence that appears to 
have been systematically perpetrated.
    While the threat posed by ARSA and any militant group 
should be taken seriously, the greatest risk to civilians in 
Rakhine state today is coming from the Burmese military. We are 
witnessing the commission of crimes against humanity and ethnic 
cleansing on a horrific scale. Without an immediate end to 
atrocity crimes and the creation of safe conditions so that 
those displaced can safely and voluntarily return in the 
future, we will witness a brutally effective campaign to rid 
all Rohingya from Burma.
    There is mounting evidence that genocide is happening in 
Burma. There needs to be additional investigation on the intent 
of perpetrators in order to make a definitive legal declaration 
of genocide. The Burmese Government is currently blocking 
efforts to investigate those crimes, but the U.S. has the 
ability to support such an investigation in order to bring the 
full truth to light.
    While investigations should, of course, move forward, by 
the time an investigation can be made into genocidal intent, it 
may be too late. We should not wait for a formal legal finding 
of genocide before taking action.
    The military is the primary perpetrator of mass atrocities 
and should be pressed with all of our available resources to 
cease its illegal campaign against Rohingya civilians. While 
the most urgent demand is for mass atrocities to cease, we must 
also address the underlying policies and institutions that 
allowed such crimes to occur.
    The ultimate responsibility for deescalating the current 
cycle of violence and protecting the lives and freedom of 
Burma's minority populations rests with the country's de facto 
leader, Aung San Sui Kyi. As a basic principle, we should not 
fear pressing democratically elected leaders to squarely 
confront mass atrocities within their country. We can 
understand the nature of Burma's democratic transitions and the 
outsized role the military continues to play, while at the same 
time expecting moral responses from its civilian-led 
government.
    The U.S. Congress does not need to choose between stopping 
mass atrocities and supporting a democratic government. After 
all, a democracy in which mass atrocities are occurring is 
still wholly unacceptable. Thank you.
    [The prepared statement of Ms. Gittleman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                      ----------                              

    Mr. Yoho. Those were great words. I appreciate that. You 
know, so many times we promote democracy, and a democracy, if 
you go back to Ben Franklin, was two wolves and a sheep 
deciding what to have for lunch. The sheep always loses.
    The beauty of our Nation as a republic, a constitutional 
republic that protects the rights of a minority, and when you 
have a--you know, I think you said a lot by saying that in the 
face of fledgling democracy, do we throw everything at that and 
forsake what is going on on the ground to the people that are 
getting abused. I appreciate that.
    Mr. Lohman, you talked about your five recommendations, and 
I agree with you. They are good. But I see those as more long-
term to prevent future in the future. What do you do for the 
now, because they need help now? Are they effective enough? If 
we were to do all five of your recommendations, do you think 
that would bring the atrocities to an end?
    Mr. Lohman. No, I don't. I mean, in fact, I agree with you. 
These are more long-term, broader recommendations getting at 
the bigger problem, which is the role of the military in Burma 
and its participation in this sort of thing throughout the 
country, not just with regard to the Rohingya.
    I mean, in my estimation, the most immediate need would be 
to bring relief to those people now and to end the atrocities 
and bring relief to them. I mean, unfortunately, we don't have 
many tools at our disposal, but an effective tool is to 
actually bring it to an end immediately. I don't think anyone 
in the U.S. is prepared to bring military force to bear that 
would do that, and certainly cutting off generals and putting 
them on the SDN list and that sort of thing, especially since 
that is going to take a lot of time, it is not going to do it 
either.
    I think the only thing we have right now is moral suasion. 
We have appeal to the U.N. Security Council. We have some of 
those things to do, but I don't want to overestimate how much 
effect that can have on the current situation.
    Mr. Yoho. All right. I have a follow-up question. This is 
going to be to Dr. Martin. The previous U.S. administration 
dramatically removed U.S. sanctions on Burma following the 
electoral victory of Aung San Suu Kyi. The National League for 
Democracy. Was lifting the sanctions a mistake? Should 
sanctions have been eased in a more gradual stepwise manner, 
assuming or thinking that in the future sanctions will be put 
back on?
    Mr. Martin. Thank you, Mr. Chairman, for the question. As 
you know, I am an analyst for CRS. In the capacity I am here, I 
am not supposed to make comment or recommendations.
    Mr. Yoho. We won't tell anybody.
    Mr. Martin. Okay. But I will draw from your previous 
question in terms of immediate things that can be done. For 
example, currently, the President has the authority to say for 
national interest reasons the members of the military can enter 
the United States, and under JADE Act 5(b), they are not 
supposed to be given those visas to enter the United States. 
The administration, both the previous one and the current one, 
do hand those out with some regularity. So the administration 
could, at this point, stop handing out those visa waivers. It 
is immediate action they can take.
    Second, section 5(b) of the JADE Act is still in effect in 
terms of the law. It just has been waived because of the 
Presidential executive order that said we no longer are going 
to impose the economic sanctions on four designated categories 
of people, which includes military leadership. It is within the 
authority of the President, or whomever he designates, to 
reverse or undo that executive order. So if you are looking for 
something that could be done from the administration side 
revoking that executive order, on doing it would reimpose the 
SDN list--or excuse me, wouldn't reimpose the SDN list, but 
would make the JADE Act 5(b) back into effect.
    So one of the things that is a little bit complicated in 
this situation is that many of the laws imposing sanctions are 
still on the books. They are still there. They are not being 
enforced right now because of the previous President's waiving 
of those sanctions.
    Mr. Yoho. That is good information, and we will look into 
doing that immediately and give those recommendations.
    Mr. Sullivan, Aung San Suu Kyi has repeatedly stated to the 
international community, that international coverage of the 
situation in Rakhine state is biased and inaccurate and 
incomplete. Is there any merit to her claims? If so, in what 
respect, and what impact might this have on U.S. relationships 
with her government? I mean, you have been there.
    Mr. Sullivan. Yes. Thank you for the question. I think if 
you are there and you speak to the people about what has 
happened, it is very clear, as I laid out in my testimony, and 
this is backed up by satellite images, by videos that have come 
out. It is very clear that something is happening, so it is 
honestly mind-boggling that she would say that she doesn't have 
any idea why, why people are leaving in such numbers. So it can 
and should have an effect on the bilateral relationship.
    Mr. Yoho. Okay. I appreciate your comments. I am out of 
time.
    I am going to yield to the ranking member, Mr. Sherman.
    Mr. Sherman. Mr. Martin, how much aid do we give to Burma, 
particularly USAID, do we know?
    Mr. Martin. I don't know the precise figure off the top of 
my head. I can certainly----
    Mr. Sherman. Can you give me a range?
    Mr. Martin. Roughly about $80 million a year right now, 
fiscal year.
    Mr. Sherman. So the first thing we could do is cut back. Is 
much of that for democracy and human rights promotion or is it 
mostly economic development?
    Mr. Martin. There is a combination of economic development/
promotion, but also, we have been a significant supporter of 
the peace process that is underway under the terms of what is 
called the national ceasefire agreement. Bear in mind, only 
eight of the roughly 22, 23 EAOs have signed that ceasefire 
agreement. And I will throw in that----
    Mr. Sherman. There is the slogan no justice no peace, the 
idea that we would be giving money to the Burmese Government to 
help it achieve its objectives. Now, human rights and democracy 
may not be its objectives, but anything that is consistent that 
we would be giving them money for that seems absurd, especially 
when we are talking about doing things that would cost the U.S. 
taxpayer money, such as sanctions or humanitarian aid, all of 
which may be warranted, but we should first do the thing that 
reduces expenditures.
    I am going to ask this question probably for the record, 
unless somebody knows, but I hope Dr. Martin and his team at 
the CRS will get me an answer. What is being done to publicize 
to the Muslim world China's support for this murderous regime? 
And what is being done to publicize the fact that we are doing 
more to protect the Rohingya than any other state, other than 
those in the immediate neighborhood?
    I don't see anyone anxious to answer that question right 
now, so I will ask that for the record.
    Now, an uncomfortable question: Is ARSA engaging in some 
smaller atrocities? And given our support for the Rohingya, can 
we persuade them to limit their actions to those against the 
Burmese military?
    Mr. Lohman, or anyone else?
    Mr. Sullivan. There are reports of ARSA carrying out 
attacks and----
    Mr. Sherman. Against civilians?
    Mr. Sullivan. Yes. And, of course----
    Mr. Sherman. And for the record, they are tiny in quantity 
compared to what the Rohingya people are facing. At the same 
time, they undermine the moral case that we are trying to make. 
They also undermine the ability of the Burmese Government to 
change its policy and become more reasonable. One atrocity 
against Buddhists in Rakhine State could make it difficult for 
those inside the Burmese Government to change its policy.
    Let's see. Is Voice of America carrying the message that it 
should? Does the average person in Burma know what the world 
thinks of what their government is doing?
    Mr. Lohman? Anybody know? If we don't have an answer, I 
will ask for the record.
    Mr. Martin. I can get you more information, sir. I know 
Radio Free Asia, for example, has regular stories about what is 
going on in Rakhine State.
    Mr. Sherman. And are those in----
    Mr. Martin. They focus primarily----
    Mr. Sherman. Are those in the Burmese language?
    Mr. Martin. Yes, there is a Voice of America-Radio Free 
Asia Burmese broadcast.
    Mr. Sherman. One would hope that they would have the 
courage at the Burmese service to push these stories, not just 
in the--I assume we have a--that we also broadcast in the 
language of Bangladesh. It is a lot easier for that service to 
cover this message.
    I will just throw this out here: If the Burmese Government 
disenfranchises some of its people--I mean, a government has a 
certain amount of territory for the benefit of its people. They 
have disclaimed over 1 million of their people. If they 
permanently show that they are unwilling or unable to protect 
the Rohingya, is a long-term solution the transfer of territory 
to Bangladesh?
    We obviously, as a Nation, don't like to see sovereign 
borders change, but when a nation refuses to allow its own 
people to live on its territory, it loses the right to control 
that territory.
    Dr.Martin?
    Mr. Martin. Real quick. Since you bring that up, because in 
the early days when there was a previous insurgent group among 
the Rohingya, what they wanted at that time was to be part of 
what was Pakistan, East Pakistan.
    Mr. Sherman. Which is today Bangladesh.
    Mr. Martin. Which is today Bangladesh.
    So I do not know if Aung San's leadership or the Rohingya 
people in general would want that----
    Mr. Sherman. Obviously, the first choice is the return of 
the refugees' citizenship, protection, and living in harmony 
with the other people of Rakhine State. But if that cannot be 
achieved, then a transfer of population has been achieved 
through this ethnic cleansing; perhaps a transfer of territory 
would go along with it.
    For the record, I want to point out that the Ambassador for 
Bangladesh has no comment.
    Mr. Yoho. Thank you, Mr. Chairman.
    We will now go to Mrs. Ann Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, very, very much. I 
appreciate it, as I said in my opening statement, your 
willingness to hold this hearing.
    In 2013, there was an article in the Emory International 
Law Review calling for an international investigation into mass 
atrocity crimes against Rohingya Muslims. I know this because 
one of my staff members, Rachel Wagley, actually published the 
article.
    Sadly, everything written then is just as pertinent today, 
and this was back in 2013. It is heartbreaking how little the 
conflict has changed.
    Ms. Gittleman, you wrote that even if an investigation is 
conducted, we cannot wait for a formal finding of genocide to 
take action. I agree.
    What are the obstacles to establishing an international 
investigation? Where is the United Nations? And how do you 
believe the U.S. should leverage its influence to spur some 
sort of international investigation?
    Ms. Gittleman. Well, thank you for the question, 
Representative Wagner.
    I think this is a really important issue. The reason why we 
might not have sufficient information in order to make a legal 
declaration about the situation is because it is so difficult 
to access the areas of northern Rakhine State where the 
military has been committing these crimes. There has been a 
fact-finding mission that was created by the United Nations 
Human Rights Council.
    So far, the Burmese Government has resisted any efforts to 
cooperate with that mission to allow them to undertake their 
investigation in a way that would get them the access that they 
require. I think the situation now in the face of denials and 
obstacles placed by the Burmese Government that requires a 
greater push internationally for an independent investigation.
    I think the United States is well placed as one of the key 
players, both on the Security Council and as one of the forces 
that I think would help mobilize more support for an 
international investigation.
    This would be an extremely important next step.
    Mrs. Wagner. It has been going on, well, for 60 years, but 
for 5 years now with Rohingya Muslims. Well past time.
    Ms. Gittleman or Mr. Sullivan, we hear so many stories of 
rape and sexual abuse coming out of Burma, and you outlined 
some of that, Ms. Gittleman. The Bangladesh Embassy has 
reported that many of the Rohingya flowing into Bangladesh are 
women and children.
    Can you talk about the risks facing women and girls in 
Rakhine State and help us understand how the international 
humanitarian response can better confront sexual violence?
    Ms. Gittleman. Sure, I will address quickly and then turn 
to my colleague.
    What we have seen from people who have fled such horrific 
violence and who have come into Bangladesh, many have shared 
stories of use of rape and other forms of sexual violence. The 
way that they describe these crimes being committed makes it 
appear that they are being done systematically so that it is 
being used as a weapon specifically against women and girls, 
against Rohingya women and girls. This is not ad hoc. This 
isn't something extraneous. It certainly isn't part of any kind 
of counterinsurgency operation.
    This is something that has been--we have heard stories from 
people from across different geographic areas, which leads us 
to believe this might be something that is quite widespread.
    So, if you imagine women and girls fleeing from their 
homes, seeing horrific violence, being subjected to sexual 
violence, running, getting over the border, which may take days 
or weeks, once they arrive with very little possessions, little 
money, then they need to set about accessing the kind of 
healthcare and services that they would require. And you can 
only imagine how daunting that must be for people who have 
experienced so much trauma. So there needs to be assistance to 
make sure that those many people can get the aid that they 
need.
    Mrs. Wagner. Let me just jump in here because I have 
limited time, as I have another question that I want to--thank 
you very much. It is just horrific.
    I am so disappointed and angered, frankly, by Suu Kyi's 
actions or lack of actions. To whoever can best answer, has she 
made some sort of agreement with the Burmese military to enable 
violence against Rohingya? Does she have any political room 
whatsoever to provide any moral leadership at this point with 
respect to the Rohingya? Surely other minorities in the country 
can sympathize with the plight of the Rohingya. Please.
    Mr. Sullivan. Yeah, I can't speculate as to what her 
motivations are, and I share the disappointment. But the fact 
is she does have a powerful voice and she was voted in 
overwhelming, has lots of support that she can garner.
    Just quickly on your previous question, I would just point 
to, as I mentioned in my testimony, I was in Bangladesh a few 
months ago, and Refugees International released a report at 
that time in July based on what had happened since the influx 
of 87,000 Rohingya after October 2016 and talked about the 
gender-based violence and the accounts that we heard. So you 
can only imagine that today, with over 400,000----
    Mrs. Wagner. Right.
    Mr. Sullivan [continuing]. Approaching 500,000 now, what 
level of a challenge that is. And there were doctors from the 
U.N. just yesterday or the day before who came out and talked 
about documenting dozens of cases.
    Mrs. Wagner. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Yoho. Thank you, Ms. Wagner.
    We will now go to Dr.Bera from California.
    Mr. Bera. Thank you, Mr. Chairman.
    Thank you to the ranking member, and also thank you to the 
witnesses.
    You know, this is tragic. I mean, as Mr. Sullivan pointed 
out, we are seeing genocide and ethnic cleansing repeating 
itself. If we just think about our moral character and our 
values as a Nation, we can't sit idly by. You have outlined a 
few ways that we can approach this in terms of trying to 
leverage the Burmese Government and the Burmese military.
    From the public perspective, in my own community back in 
Sacramento, different groups are starting to come back, 
religious groups, public advocates, et cetera. They are trying 
to raise awareness. So, again, a lot of people aren't paying 
attention to the plight of the Rohingya, but they are trying to 
raise local awareness.
    Mr. Sullivan, maybe from your perspective, what can the 
public do right now because we also want to see that public 
pressure?
    Mr. Sullivan. Yes. Thank you. I think going back to what 
you do in democracy, you contact your representatives, and 
hopefully there are more like those on this subcommittee that 
are hearing about this and speaking out and realizing how 
urgent of a situation this is. As I mentioned, it is just 
patently different from pretty much anything I have ever seen. 
It is just really urgent. I think there are a lot of advocacy 
groups out there that try to get this information out and get 
people motivated.
    Mr. Bera. So just trying to raise the volume on it----
    Mr. Sullivan. Raise the volume----
    Mr. Bera [continuing]. So more and more people are aware--
--
    Mr. Sullivan [continuing]. Reach out to local newspapers 
that kind of thing.
    Mr. Bera. Maybe sticking with you, Mr. Sullivan, I am a 
physician by training with a background in public health. 
Thinking about the number of refugees who have fled to 
Bangladesh, you mentioned that you were recently in the camps 
there. Can you talk about the conditions in the camp?
    Mr. Sullivan. Sure. As I say, it was just starkly different 
from just a few months ago where areas that had been all green 
are just overrun. People carrying bamboo sticks and tarps and 
rope to try to prop up shelters. The monsoon rains are going 
on, so people walking through ankle-deep mud. It is just an 
immense challenge just to record who is coming in.
    The Bangladesh Government, working with UNHCR and others 
have begun to take biometric information and give out cards to 
try to keep track of who is there. But they have maybe done 
around 13,000 of the nearing 500,000 that are there now.
    Mr. Bera. Okay. The majority are in camps, and what we have 
seen in Jordan with Syrian refugees is they have tried to 
assimilate them and get them into urban communities. But I have 
to imagine the majority in Bangladesh are living in camp-like 
settings. That raises public health concerns, and real public 
health concerns because not just the tragedy of being forced 
from their home; now we very much have to think about the 
possibilities of disease and so forth and the toll that would 
take on morbidity.
    Are they seeing those public health issues right now?
    Mr. Sullivan. Yes, it is a huge risk. I mean, there was 
already, there were outbreaks after the October influx. This is 
just on a much larger scale. So, yeah, it is a very high risk.
    Mr. Bera. Bangladesh is not a wealthy country. What can and 
what should we be doing at the congressional level and at the 
international level to help support the refugees?
    Mr. Sullivan. As I mentioned, there was $32 million that 
the U.S. Government gave, but the needs are a lot more. So 
getting that financial support out there and making sure that 
there is proper coordination and going along with guidelines, 
internationally accepted guidelines, building shelters, and 
providing medical care.
    Mr. Bera. My colleague, Mr. Sherman, has identified $80 
million that potentially we could move over.
    You know, it is tragic. I know we can't speculate on Aung 
San Suu Kyi's motives here, but for someone who has previously 
been held in pretty high regard by many of us, the lack of not 
using that bully pulpit to speak out and push back--I mean, 
this is a person who previously has shown moral courage. If 
they are paying attention and listening, if she is watching 
this, there was never a time for moral courage like the time 
right now.
    So this is the time to use that bully pulpit.
    Thank you, and I will yield back.
    Mr. Yoho. Thank you, Dr.Bera.
    Now, we will go to Mr. Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Just a 
suggestion, and first of all, I appreciate your holding this 
conference. I have learned a lot. That is the purpose of the 
conference. We would have learned more, I believe, had we had 
someone from the Burmese Government here to give their side of 
the story.
    I have been chairman of various subcommittees. No matter 
how reprehensible the other side is on whatever issue, I have 
always made sure that both sides had a chance. I think it would 
have been interesting to hear an interaction and charges and 
refutations and how someone would have responded to the charges 
we have heard today.
    I have learned a lot, as I say. Let me ask some more 
fundamental questions here. In the Rakhine State, how many of 
those people are Rohingyas--I am sorry I mispronounced it--what 
percentage are that, and what percentage are other ethnic 
groups?
    Mr. Martin. Congressman Rohrabacher, let me try to give you 
a rough idea. First off, the easiest answer is no one actually 
knows. A couple years ago, Burma tried to conduct a nationwide 
census of its population, the first one in decades. But when it 
came to Rakhine State, when they wanted to do a census of the 
Rohingya households, the provision was they had to self-
identify as Bengalis. That was objectionable to all those----
    Mr. Rohrabacher. What is your guess as to----
    Mr. Martin. Well, the figure that is normally put around is 
1 million to 1.1 million Rohingya.
    Mr. Rohrabacher. Okay. And the population of----
    Mr. Martin. And then I can't remember the exact figure off 
the top of my head of the Rakhine. The Rakhine, who tend to 
live in the southern part of the state, are the majority of the 
population, but scattered throughout the state are other ethnic 
groups. Interestingly enough, there is another group called the 
Kamar, who are also Sunni Muslims.
    Mr. Rohrabacher. Okay.
    Mr. Martin. They are citizens----
    Mr. Rohrabacher. Okay.
    Mr. Martin [continuing]. But they are a very small 
percentage. Then you have----
    Mr. Rohrabacher. So, overall, what is the guess of the 
population?
    Mr. Martin. I believe the figure is around 5 million.
    Mr. Rohrabacher. Two million? Five million?
    Mr. Martin. Yeah, I would have to double check that on you.
    Mr. Rohrabacher. Okay. We don't know.
    Okay. Anybody else have a guess?
    Okay. I don't want to even guess, but there are 1 million 
people that are part of this ethnic group that now has been 
targeted. We know that. And they were denied citizenship. This 
ethnic group that we are talking about today has been present 
in this state since Burma became a country in 1948. This is not 
a new group that showed up.
    So to claim that they are illegal immigrants, which Burma 
does, is inaccurate in that they have been there the whole 
time.
    Let me just note, in Burma, having a little background in 
Burma, I know about the Chins, the Kachin, the Karens, the 
Karennis. And now we know this ethnic group as well as--they 
are in the same area. There are several ethnic groups.
    So the idea that if there is ever going to be any peace in 
that country, basically the Burmese who control the capital and 
control the country as a whole, had better be accepting of that 
or there is just going to be one big blood bath as we have 
seen, by the way. There were, again, hundreds of thousands of 
Karens and Karenni who were Christians, who had to leave Burma 
in order to flee for Thailand, 20, 30 years ago. I know I 
visited them and I visited Aung San Suu Kyi when she was under 
house arrest. And let me just say I, too, am disappointed that 
she has not spoken up.
    Only a respect for human rights by that country as a whole 
with all of these people is going to bring about, you know, any 
type of peace or an end to this.
    Let me just note that there--and thank you very much for 
the good job you did with the Congressional Research Service on 
giving us a background. I notice that the militant group that 
is supportive of, and again, the Rohingyas, actually, in August 
2017, conducted a coordinated attack on 30 police and army 
outposts. So this isn't a bunch of passifists who are now being 
slaughtered by the Burmese military.
    On October 2016, there was, again, attacks by this 
particular, the army representing this ethnic group. I think if 
we are going to be peacemakers in the world, which I think the 
United States should be--and I agree with you that we need to 
participate, go down there and participate in an international 
investigation. But we need to be really honest about what we 
see and not, again, just take sides because you will get a 
headline for today, or it seems that this is what the reality 
is, even though we haven't investigated it.
    So this reminds me a lot, Mr. Chairman, of the--pardon me 
for talking too long here--reminds me of another crisis we went 
through early on between the Serbs and the Kosovars. It reminds 
me a lot of that. The Serbs were involved with all kinds of 
violent activity, and the Burmese remind me a lot of the Serbs 
at their worst.
    But let me just say that we should be a force for good in 
this world and to find out truth. And with truth, we do need 
both sides to be telling us their story. And I would hope that 
someday that we can play a positive role with the Burmese.
    With that said, thank you very much for your testimony. I 
have learned a lot.
    I will be looking forward to working with you, Mr. 
Chairman, to make sure that we play a positive role.
    One last question. How much have our Muslim friends in 
other countries, especially oil-rich countries, contributed to 
the plight of these poor people who are now being pushed into 
Bangladesh and are under such horrible circumstances?
    Has there been any major help being offered by their fellow 
Muslims? Do we know?
    Mr. Martin. Yes. Saudi Arabia, in particular, has been 
outspoken, as has Malaysia recently, in terms of seeking 
support for this community. And I can't think of the name right 
now, but one of the multilateral Islamic groups has tried to go 
into Rakhine State to provide assistance in the past but has 
been rebuffed by the government.
    Mr. Rohrabacher. Rebuffed by the Bangladesh Government?
    Mr. Martin. No, this is inside Burma.
    Mr. Rohrabacher. Oh, inside Burma.
    Mr. Martin. Inside Myanmar.
    Mr. Rohrabacher. Okay. Well, I am not looking for people 
who are outspoken. I am looking for someone who is outspent. So 
I hope we could get some assistance down, because what was 
described today, these people are in a desperate situation. 
Good people around the world should try to save them in this 
desperate situation.
    Thank you very much, Mr. Chairman.
    Mr. Yoho. Thank you both for your comments.
    We will next go to Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome to our panel.
    Mr. Sullivan--well, any of you--I mean, is this, from an 
international legal point of view, ethnic cleansing?
    Mr. Sullivan. Ethnic cleansing doesn't have a clear, legal 
definition, but by any kind of standards of what it has been 
described of as displacing an entire group of people forcibly, 
then yes, it absolutely--and as the High Commissioner for Human 
Rights has said, it is a textbook case of ethnic cleansing.
    Mr. Connolly. Right. So you are right: It is not exactly a 
legal concept, I suppose, in the Hague, but when the 
Commissioner for Human Rights uses it, it has some force of 
meaning.
    Do we believe that it is the intention of the Burmese 
Government or Burmese military, or both to, in fact, cleanse 
Burma of the Rohingya, period?
    Any of you can feel free.
    Ms. Gittleman. There are many legal terms that can be used 
to describe this situation. Crimes against humanity appears----
    Mr. Connolly. No, no. Ms. Gittleman, my question is: Do we 
believe that it is the intention of the military or the 
Government of Burma to, in fact, eliminate the Rohingya from 
Burma or Myanmar?
    Ms. Gittleman. What we are seeing today is a campaign of 
ethnic cleansing. What we don't know----
    Mr. Connolly. Ms. Gittleman, I know that.
    Ms. Gittleman.--is the exact intent----
    Mr. Connolly. We have established that. I am asking a 
different question.
    Is it the intention, do we believe, of the current 
Government or the military of Myanmar to essentially be 
Rohingya-free? Is that what they are doing?
    Ms. Gittleman. What we don't know is the exact intent of 
those perpetrators?
    Mr. Connolly. Mr. Lohman, do you have any views on that 
matter?
    Mr. Lohman. No, I mean, I agree. We don't----
    Mr. Connolly. Please speak into the microphone, Mr. Lohman.
    Mr. Lohman. We don't know their intent. I mean, how can we 
know their intent?
    Mr. Connolly. Can you make a wild guess given the fact that 
\3/4\ of 1 million people are in Bangladesh?
    Mr. Lohman. Yes, absolutely. I would say, by the looks of 
it, yes, it is ethnic cleansing.
    Mr. Connolly. Dr.Martin? No, I am not asking that question.
    Mr. Lohman. Okay.
    Mr. Connolly. Are they trying to make sure that Burma or 
Myanmar is in fact free of all Rohingyas? Is that their goal? 
So that that ethnic minority no longer is present in their 
country? That is my question.
    Is there a strategic goal here, besides, ``We just don't 
like them, and we are responding,'' as you in your testimony 
said, clearly overreacting, ``to insurgent attacks on the 
Burmese military''?
    Mr. Martin. I will speak to the record of what we know from 
what has been said. Aung San Suu Kyi in her speech of September 
19 to the international community said that she would welcome 
the return of the Rohingya. However, it is under a 1993 
agreement with Bangladesh and its provisions about 
documentation or verification of the fact that they were 
residents, not necessarily citizens, of Burma before.
    So I believe there is some indication, at least on her 
statements, of a willingness to see a return of some portion, 
exactly what portion, of the roughly \1/2\ million who have 
left.
    Mr. Connolly. But she----
    Mr. Martin. Now, in terms of the military, I did speak to a 
lieutenant general when I was in Naypyitaw just 2 weeks ago. 
They do not portray this as any effort on their part to try to 
make the people move out of the area. All they are doing is 
pursuing ARSA's members and their sympathizers.
    However, I cannot find the quote right now, but there was a 
quote from a few years ago when there was a similar incidence 
of Rohingya leaving, where somebody senior in the military 
said, ``If some friendly nation will take all 1 million of 
them, we would be happy to see them all leave.''
    Mr. Connolly. Yeah.
    Mr. Martin. And that is on the historical record. So I 
would suspect one could infer that, at least in the Tatmadaw, 
there are some who would----
    Mr. Connolly. Thank you.
    Mr. Martin [continuing]. Welcome it.
    Mr. Connolly. Thank you. Because I think we have to be 
clear about that. I mean, frankly futzing around about, ``Well, 
we are not sure about their intent, who can read their minds,'' 
their behavior is what tells us what is happening. This isn't 
some localized action. This is mass relocation of people to 
another country. And thank God Bangladesh is there and willing 
to accept them. I mean, the international community owes 
Bangladesh, a very poor country, a great debt of gratitude for 
receiving the Rohingya, it seems to me. They are a poor 
country. They already had large numbers of the Rohingya already 
there, and now they are almost doubling, more than doubling 
that population.
    Have people in, besides Aung San Suu Kyi, have people in 
the legislative body in Myanmar spoken out against what is 
happening? Anyone know?
    Mr. Sullivan. I haven't seen any speaking out within the 
Parliament. The popular opinion is very much against the 
Rohingya and----
    Mr. Connolly. Right.
    Mr. Sullivan [continuing]. It is a very dangerous kind of 
thing to speak out, which is why the international pressure is 
so much more important.
    Mr. Connolly. And, Dr.Martin, I think you cited the Aung 
San Suu Kyi, but she is severely circumscribed by the military. 
I mean, she doesn't control the military directly. So, if the 
military wants to continue doing this, it is not entirely 
within her ability to influence that situation.
    I was in--I am sorry--Myanmar, last year, and I was very 
struck by the competing centers of power in Naypyitaw and the 
great caution with which each side sort of wanders past the 
other.
    Mr. Lohman, you look like you wanted to comment on that. I 
would welcome the comment.
    Mr. Lohman. I was going to say, I mean, I agree with that 
sentiment. And I----
    Mr. Connolly. Please speak into the microphone.
    Mr. Lohman [continuing]. I may be in the minority here, but 
I think we have to be careful not to be too hard on Aung San 
Suu Kyi as I do think she is very tightly restrained.
    Mr. Connolly. Right.
    Mr. Lohman. I find it hard to believe that in the last 20 
years, she has completely changed her character to the point 
where she would support this kind of thing.
    If anything, I think her remarks are a demonstration of how 
tightly constrained she is.
    Mr. Connolly. Yeah.
    Mr. Lohman. She could come out tomorrow and be very vocal 
about it, but how is that going to change the situation? That 
doesn't pull on the heartstrings of the military. They could 
care less what she thinks or anybody else in the civilian 
government thinks.
    They could end this whole experiment in democracy tomorrow 
if they want, and I think she well understands that. So I don't 
want to give her a complete benefit of the doubt. I know she 
said some things that are a little bit puzzling and disturbing, 
sort of in a positive sense. She said things about Rohingya 
that make you wonder. But I think we do have to give her a 
little bit of the benefit of a doubt. We haven't supported her 
for 25 years for nothing.
    Mr. Connolly. I am going to end, Mr. Chairman, but I just 
think that is a very critical point. I thank Mr. Lohman for 
making that point.
    I was struck by the same thing. The latitude she has, 
especially when the military is involved, is very limited. It 
is a very delicate dance with two powers coexisting very 
uneasily in Myanmar. None of that is to say one should not 
speak out about a blatant human rights violation such as we are 
witnessing now. But as to her intent and how she is reacting, 
there are some severe limitations on her that could have severe 
consequences if she stepped over unwritten boundaries.
    So we do need to understand that as we approach this 
massive human rights problem.
    Thank you, Mr. Chairman.
    Mr. Yoho. I appreciate your input. We will next go to Mr. 
Perry from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman, ladies and gentlemen on 
the panel.
    How many Rohingya are left? What is the estimate? Is there 
1 million to start or do we know?
    Mr. Martin. Like I said earlier, there is no accurate 
figures on exactly how many were there beforehand. But if we 
say roughly \1/2\ million have fled at this point since 
August----
    Mr. Perry. August 25th, accordingto this.
    Mr. Martin. August 25th, that would reduce that population 
to half. You had 87,000 before, earlier in the year. So roughly 
somewhere between a quarter to half.
    Mr. Perry. Quarter to half a million left, right?
    Mr. Martin. Of the percentage; 200,000 to 500,000.
    Mr. Perry. 200,000 to 500,000. And according to this, this 
is what I referenced. I read it last night. Wall Street Journal 
article from a week or so ago: Since August 25th, an estimated 
430,000 have fled Rakhine State.
    So, if the numbers are accurate here, in about a month, I 
mean, we are all talking here, right? These people are being--
heck, if they are lucky, they are being kicked out. If they are 
unlucky, they are not going to make it anywhere. They are dying 
in place. That is what it seems to me. It seems like it was 
about a month ago.
    So my question is, what can be done right now? How is an 
investigation going to happen in a sovereign nation that 
refuses to let anybody come in to investigate?
    Ms. Gittleman. Well, I think you raise an important 
question about all the Rohingya who remain in northern Rakhine 
State. We know the numbers of people who have crossed to 
Bangladesh, but there remains a significant fraction who are 
still in northern Rakhine State, whether they are displaced 
from their homes we don't know because we can't access the 
area. But those people, of course, remain at extremely high 
risk of atrocities, if they haven't been targeted yet.
    Mr. Perry. Yeah, I imagine.
    Ms. Gittleman. So they would require protection. They 
require aid, just as people who have crossed the border have.
    Mr. Perry. So no sooner is Burma or Myanmar, or whatever 
you want to call it, going to allow, as a sovereign nation, 
going to allow the United States or Bangladesh or China or 
anybody else come in and tell them how to run their railroad; 
the answer seems to be somewhere in the U.N., right?
    The clock is ticking. So, since we are not probably going 
to be able to force anything as a sovereign nation, any more 
than we would want Burma to force anything on the United 
States, what is the United Nations doing, and what are we doing 
in concert with the United Nations right now to take action 
right now, today, within a few days? Because in 30 days, we 
probably won't talk about this anymore because it will be 
history, right? We will be writing about it. So what is 
happening now?
    Mr. Sullivan. Yeah, tomorrow, the U.N. Secretary General 
will be addressing the U.N. Security Council for the first time 
in open debate. There has been closed discussion.
    It was very welcome that the Trump administration, after 
about 3 weeks, came out with a call for the U.N. Security 
Council to take swift action.
    I would say that, you know, I laid out some of the things I 
would recommend, including the multilateral sanctions, arms 
embargo.
    On the accountability----
    Mr. Perry. Sir, with all due respect, I don't think the 
U.N. needed to wait for President Trump to come out. This is 
what we have a U.N. for. Talking about sanctions when this is 
going to be over in a month, according to these numbers, or 
substantially if these hold, a discussion tomorrow is 
meaningless. What you need is a vote. And Burma has to accept 
some kind of envoy to go into their country and witness and 
have an investigation. Everybody in the room knows it. Other 
than that, all we are talking about is platitudes and we wish 
this could happen.
    Sanctions aren't going to do anything in that amount of 
time. By the time sanctions matter, it is all going to be over. 
And they are not even having the discussion yet.
    Mr. Sullivan. Well, I agree. But I think you can't wait for 
that. And there are things that are being done. Like the U.N. 
fact-finding mission is going to Bangladesh, where they can 
access people, and collecting evidence.
    Mr. Perry. Are they going to be allowed to be in Rakhine 
State, this fact-finding mission?
    Mr. Sullivan. The government has said they will not allow 
them.
    Mr. Perry. So all that is pointless as well.
    While I appreciate the information, I appreciate your 
passion, compassion, and your interest in this, it is very 
frustrating. But all we are doing is talking right now, and it 
doesn't seem like there is a solution in this room that is 
recognized. The solution is at the U.N.
    And somebody ought to not wait until tomorrow. Somebody 
ought to be meeting right now and not having a discussion 
about, ``Is this happening,'' but have a vote right now 
tonight, today, on going in there and doing something, right? 
That is what needs to happen. Otherwise, this is all just 
unfortunate conjecture, and these poor people are either going 
to leave or be killed. That is the answer, unfortunately.
    Mr. Chairman, I yield.
    Mr. Yoho. I appreciate your comments and your passion. And 
you bring up a very good point.
    Mr. Sullivan, reading your--I believe it is your testimony. 
Yeah, it was yours--your recommendations, ``Congress should,'' 
and you listed several things: Press the Trump administration 
to work through the U.N. Security Council.
    One of your bulleted points were support for a referral to 
the International Criminal Court unless Myanmar authorities 
take significant measures to address the human rights.
    I am thinking the same thing Mr. Perry did. Why?
    I mean, we see what is going on. We need to put the 
pressure on now. Our recommendations that are going to come out 
of this meeting because of you guys are going to be for JADE 
Act to be revoked immediately. The $63 million that was 
requested for aid to Burma, our recommendation is we are going 
to hold that. Our team doesn't know that yet. I guess they do 
now. Then to go to the U.N. and say, ``you need to do something 
now. We demand you act now.''
    This is something, again, that we are in the 21st century, 
and I see these atrocities going on that makes you not even 
want to be part of the human race to see these going on. 
Everybody out here, in here, has a Representative that you vote 
for. Demand that they do something about that. Please do 
something about that.
    Let's see, what else do I have here? This is a question I 
want to ask. If you all can comment on this, if you have time 
for one more question: Burma is a member of the ASEAN nations, 
one of the members of 10 nations. What is the sentiment of the 
other nations in ASEAN with this kind of action? Do they have 
the wherewithal, the fortitude to say, ``What you are doing is 
wrong, and you need to bring it to an end''?
    What are your thoughts on that? We will start with 
Dr.Martin, if you have time and patience.
    Mr. Martin. Sure. Real quickly. ASEAN actually just 
recently released a statement with respect to what is going on 
in Burma, or Myanmar, as they call it. It was expressing 
concern, would be the way I would phrase it. Malaysia objected 
to that statement saying that it did not address sufficiently 
the situation in Rakhine State or the situation for the 
Rohingya.
    Two other aspects with respect to ASEAN: They have a 
traditional policy of noninterference in internal affairs, and 
so this would be considered possibly an internal affair; they 
don't want to get involved. However, they also have set up an 
ASEAN Human Rights Commission, which has been criticized for 
being ineffective and not taking much action. So one could 
argue that this is a time where the ASEAN Human Rights 
Commission could step up and take an active interest.
    Mr. Yoho. Mr. Lohman?
    Mr. Lohman. Yeah, if you think the U.N. is ineffective 
addressing the situation, ASEAN is completely useless.
    So, I mean, because of their noninterference principle and 
other considerations, you know, they have watched this over the 
last 25 years or so and done really nothing about the whole 
range of issues in Burma.
    So I wouldn't expect much, at least in being able to help 
this current situation.
    The one area that might be able to be of some assistance is 
helping to get humanitarian aid into the country. Back in 2008, 
they played a role in cyclone. In August, I was there and they 
did play a role; it was very late. The Burmese prevented 
humanitarian assistance from coming in to address the results 
of a natural disaster, but eventually they did, and they did 
through ASEAN. So they may be able to be of some help in that 
regard.
    Mr. Sullivan. I would just add that the Prime Minister of 
Thailand will be meeting with the White House early next week. 
So that is an opportunity to express their need to put more 
pressure on Myanmar and to accept Rohingya who are fleeing.
    Ms. Gittleman. I think we are seeing growing concern from 
other countries in the region, which as I said, is a different 
tack. With ASEAN, of course, they have been premised on 
cooperation, and I think it is the sheer urgency of this crisis 
that is making some countries in the region change their tune.
    Mr. Yoho. I just want to say how much I appreciate you all 
being here because you are bringing to light, you know, you are 
shining a light on just a terrible tragedy and atrocity that is 
going on around the world.
    As you brought up, Mr. Sullivan, how many times are we 
going to go through this? We have seen this throughout history. 
We have seen it, you know, Auschwitz, in World War II and all 
the genocide that happened there. Rwanda, Bosnia, Serbia, 
Darfur.
    How many more times do we want to tolerate this? There has 
got to be a better way. The U.N. is an effective--but there 
needs to be an enforcement mechanism within the U.N., a 
multinational enforcement, that can bring this kind of garbage 
to an end. These kinds of crimes against humanity just need to 
be brought to an end. And the people that are responsible for 
this, we need to prosecute those people, and it needs to be 
done rapidly to send a signal out to the rest of the world.
    And for clarification, it was not a very revocation of the 
JADE Act. It was the no waiver on the--I can't read that--what 
does that say--on the sanctions.
    So we are going to act on what you guys told us. I 
appreciate it.
    Ambassador Ziauddin, thank you for being here and what your 
country is doing. Our office is going to reach out to you to 
work on this more specifically.
    With that, the meeting is adjourned.
    The notes will be added to the congressional record, and we 
thank you again for your time, your patience, and your 
tolerance.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
                                 <all>
</pre></body></html>
